No. 20-524
IN THE SUPREME COURT OF THE
UNITED STATES
--o0o-Yi Tai Shao,
Petitioner,
vs.
John Roberts, et al.,
Respondents.
—o0o—
On Petition For A Writ Of Certiorari To the United
States Court of Appeals For The District of Columbia
Circuit
[Court of Appeals Case No. 19-5014]

MOTION FOR LEAVE TO FILE AMICUS
CURIAE BRIEF OF MOTHERS OF LOST
CHILDREN
CHRISTOPHER W. KATZENBACH
ckatzenbach@kkcounsel.com
KATZENBACH LAW OFFICES
912 Lootens Place, 2nd Floor
San Rafael, CA 94901
Telephone: (415) 834-1778
Fax: (415) 834-1842
Attorney for Amicus Curiae
Mothers of Lost Children

i

TABLE OF CONTENTS
MOTION FOR LEAVE TO FILE AMICUS CURIAE
BRIEF.......................................................................... 1
INTEREST OF AMICUS CURIAE ............................ 3
SCIENTIFIC STUDIES SHOW THAT MOTHERS
ARE SYSTMATICALLY FORCED TO ACCEPT
PLACEMENT OF THEIR CHILDREN WITH
ABUSIVE SPOUSES. ................................................. 3
CONCLUSION............................................................ 9
TABLE OF AUTHORITIES
State Cases
Betra v. Wolfe (March 14, 2008) 0116059/2004
(Sup.Ct. NY County) 2008 NY Slip Op 30821, 2008
N.Y. Misc. LEXIS 1933 ........................................... 5
Linda Shao v. Tsan-Kuen Wang, H040395, filed on
May 10, 2017 (Cal App. 6th Dist.),
http://shaochronology.blogspot.com/2017/04/eviden
ce-of-conspiracy-and-judicial.html.......................... 6
Other Authorities
“Is Justice for Sale in LA?’,"Kelly Patricia
O’Meara,Insight Magazine, Vol. 15, No. 16 - May 3,
1999.......................................................................... 5
Geraldin B. Stahly, Ph.D., et al., Abuse Allegations
in Custody Disputes: The Experience of Protective
Mothers, California Protective Parents
Association,
https://www.caprotectiveparents.org/research ...... 3

ii

Hours Concurrent Resolution 72............................ 7, 8
House Concurrent Resolution 150 ............................. 7
US Department of Justice, Justice News: “Attorney
General Eric Holder via Video to the National
Summit on the Intersection of Domestic Violence
and Child Maltreatment” Tuesday, June 2, 2009; . 6

1

MOTION FOR LEAVE TO FILE AMICUS
CURIAE BRIEF
Pursuant to this Court’s Rule 37.2, counsel for
Petitioners and Respondents were notified Amicus
Curiae Mothers of Lost Children’s intent to file this
amicus brief. Petitioner and the Solicitor General’s
Office have consented to the filing of an amicus brief.
As of the filing of this motion, the other Respondents
have not agreed or disagreed as to filing of an amicus
curiae brief.
Amicus curiae MOTHERS OF LOST
CHILDREN is a grassroots organization with a
mission to raise awareness about child abuse and
create a social justice movement to ensure children
are placed with the safe parent when the other
parent is an abuser. Our organization has been in
contact with over 3,000 safe nurturing mothers
whose children have been taken from them and given
to abusive fathers.
In this case, the Amicus desires to bring to the
Court’s attention information and research on the
systematic use of the court system to cause the
removal of children from their protective parents and
placement in dangerous situations, particularly the
growing bias of the system to place children with
abusive men seeking custody. The particular issues
the Petitioner seeks to present are an example of this
trend. The matters presented by Amicus put
Petitioner’s case in the larger context of a systematic
failure of due process and bias of the court system as
a whole.
WHEREFOR, amicus respectfully moves this
Court to grant filing of the Amicus Curiae Brief
submitted herewith.

2

Dated: November 9, 2020.
Respectfully submitted,
CHRISTOPHER W. KATZENBACH
ckatzenbach@kkcounsel.com
KATZENBACH LAW OFFICES
Attorney for Amicus Curiae Mothers of
Lost Children

3

INTEREST OF AMICUS CURIAE 1
Amicus curiae MOTHERS OF LOST
CHILDREN is a grassroots organization with a
mission to raise awareness about child abuse and
create a social justice movement to ensure children
are placed with the safe parent when the other
parent is an abuser.
Many mothers have learned through painful
experiences that the court system is often not
friendly to women and children who have been
victimized. Over the last two decades, the courts
have become biased in favor of abusive men who seek
custody. This is disturbing news. As said by
Cheyenne Proverb, “A nation is not conquered until
the hearts of its women are on the ground. Then it is
done, no matter how brave its warriors, nor how
strong their weapons.”
Our organization has been in contact with over
3,000 safe nurturing mothers whose children have
been taken from them and given to abusive fathers.
SCIENTIFIC STUDIES SHOW THAT
MOTHERS ARE SYSTMATICALLY FORCED
TO ACCEPT PLACEMENT OF THEIR
CHILDREN WITH ABUSIVE SPOUSES.

1 Pursuant to this Court’s Rule 37.6, amicus affirms that no
counsel for a party authored this brief in whole or in part, that no
such counsel or party made a monetary contribution intended to
fund the preparation or submission of this brief, and that no
person other than amicus and its counsel made such a
monetary contribution. Pursuant to this Court’s Rule 37.2,
counsel of record for Petitioner and Respondents were notified of
the filing of this amicus brief. Petitioner and the Solicitor
General’s Office have consented; counsel for other Respondents
have neither consented or objected.

4

Research by Geraldine Stahly, Ph.D. on 391
national protective mother cases, of which 40% were
from California, shows a chilling pattern: 2
• 89% of mothers reported being victims of
domestic violence, 65% of mothers were advised
not to raise issues of domestic violence or abuse
in court. 59% of the mothers stopped reporting
abuse for fear their contact with their children
would be terminated.
• Allegations of physical and sexual child abuse
arose in nearly all cases. In 66% of cases,
children continued to report abuse after custody
orders.
• The children had serious symptoms, including
sleep disorders, rage, regression, fears/phobias,
pain, depression, dissociation, sexual acting out,
suicide attempt, constipation/diarrhea, learning
disability, and eating disorders.
• In cases where mothers raised abuse allegation,
only 17% retained custody after court
proceedings.
• 68% of mothers lost custody in an emergency
court order. 62% lost custody in an ex parte
proceeding. 59% of the proceedings in which
custody was lost had no court reporter.
• 68% of the mothers lost custody as a result of a
psychological evaluation. 57% of the mothers
were not allowed to see the court
evaluation/recommendation on custody.
• 43% of the mothers were labeled as having PMS
(Parental Alienation Syndrome) and 33% were
labeled as “alienators”.
2 California Protective Parents Association commissioned the
study which was led by researcher Geraldine Stahly, Ph.D. The
results of this and related studies are reported at
https://www.caprotectiveparents.org/research.

5

65% of the mothers were threatened with
sanctions if they talked publicly about their
case.
• 27% of mothers filed for bankruptcy because of
the costs of litigation over custody.
• Two thirds of the children continued to report
abuse. 87% of mothers believe their children
were still being abused yet 85% believed they
cannot protect their children.
It is clear from these data that children are
being taken from their primary caregiving mothers
and placed with fathers whom the children identified
as abusive. The family court is not responding well
to the plight of abused children.
•

As medical research shows, these children will
have far-reaching negative outcomes in adulthood. It
is incumbent upon family court to prevent such
outcomes by keeping children safe and nurtured.
Evaluators, mediators, children’s attorneys
and judges ignored or suppressed the evidence.
Instead of protecting the children, courts changed
custody to the identified abuser. In over 60% of the
cases, custody was changed in ex parte hearings
which are intended to protect, not endanger,
children. 3
Why are abused children of divorce not
protected? There are two main reasons.
The first factor is money.
Divorce is the outcome of about 50% of
marriages in California. In middle and upperincome divorces, child custody has become a huge
money-making enterprise.
3 See footnote 2. The statistics were provided by Dr. Stahl,
commissioned by California Protective Parents Association, and
is pending publication.

6

Attorneys and mental health professionals make
a handsome living from custody litigation. The
longer it goes on, the more money they make.
• Judges receive job security, and retired judges
“moonlight” by hearing overflow cases.
• In a 1999 Washington Times Insight Magazine
article “Is Justice for Sale in LA?’” reporter
Kelly Patricia O’Meara described other income
in the form of payoffs to judges through a slush
fund in Los Angeles. See Insight Magazine, on
the news online, Vol. 15, No. 16 - May 3, 1999
• When one litigant can afford an attorney while
the other cannot, this financial imbalance places
the self-represented litigant at a distinct
disadvantage in court.
Large contributions to judicial campaign funds
are a vehicle for potentially influencing judges, and
in at least one jurisdiction, direct bribes were used.
New York Judge Gerald Garson was convicted and
imprisoned in 2007 for accepting bribes to
manipulate the outcomes of divorce proceedings.
See,Betra v. Wolfe (March 14, 2008) 0116059/2004,
Motion Seq. No. 001, Supreme Court of the State of
New York, New York County, 2008 NY Slip Op
30821, 2008 N.Y. Misc. LEXIS 1933.
Judges and court-appointed professionals are
rarely disciplined or held accountable for decisions
that endanger children.
•

•
•

•
•

Appeals are prohibitively expensive
Appeals judges rarely reverse lower court
rulings.
Judges and court appointees have immunity.
The California oversight agency, the
Commission for Judicial Performance, spends
over $3 million dollars per year. However, no
judges were removed from the bench in a threeyear period.
Yi Tai Shao aka Linda Shao and her daughter

7

fit this pattern. Their case is typical of cases in which
abusers, not children, are protected by family courts.
Her case is so egregious that an expert on child
abuse, Meera Fox, Esq. found the child’s lengthy
parental deprival was caused by the courts’
conspiracy with her prior attorney. Linda Shao v.
Tsan-Kuen Wang, H040395, filed on May 10, 2017.
See a copy at
http://shaochronology.blogspot.com/2017/04/evidenceof-conspiracy-and-judicial.html.
As citizens, children are having their
constitutional rights to liberty and the pursuit of
happiness violated, along with their human right to
safety. In 2011, the Inter-American Commission on
Human Rights found in the Gonzales (Lenahan) case
that the United States was committing human rights
violations by not protecting women and girls. See
IACHR, 0 EA/Ser/LIV /II. 128, Doc. 19, July 24, 2007.
This mother and child exemplify the IACHR
findings.
In 2009, at a National Summit on the
Intersection of Domestic Violence and Child
Mistreatment, prior Attorney General Eric Holder
urged the judges to consider the following issues: 4
• Why are mothers who are the victims of
domestic violence losing custody of their
children to the courts and to the child protection
system?
• Why are children of color over-represented in
the child protection system?
• Do children need a relationship with their
fathers even when their fathers have been
abusive to them and their mothers in the past?
See US Department of Justice, Justice News: “Attorney
General Eric Holder via Video to the National Summit on the
Intersection of Domestic Violence and Child Maltreatment”
Tuesday, June 2, 2009; see also
https://www.justice.gov/opa/speech/attorney-general-eric-holdervideo-national-summit-intersection-domestic-violence-and
4

8

If so, what does that relationship looks alike?
“Protecting our children is one of the most
important things we can do for society,”
Congressman Ted Poe stated in announcing House
Concurrent Resolution 150 to end the court ordered
abuse in September 2016. The harsh realities of
child abuse are real.
The successor to H.Con.Res. 150, H.Con.Res.
72, as passed by the House on September 25, 2018,
expresses the sense of Congress that:
• child safety is the first priority of custody and
parenting adjudications, and courts should
resolve safety risks and claims of family
violence before assessing other best interest
factors;
• all evidence admitted in custody and parenting
adjudications should be subject to evidentiary
admissibility standards;
• evidence from court-affiliated or appointed feepaid professionals regarding adult or child
abuse allegations in custody cases should be
considered only when the professional
possesses documented expertise and
experience in the relevant types of abuse,
trauma, and the behaviors of victims and
perpetrators;
• states should define required standards of
expertise and experience for appointed feepaid professionals who provide evidence to the
court on behaviors of abuse victims and
perpetrators, specify requirements for the
contents of such professional reports, and
require courts to find that any appointed
professionals meet those standards;
• states should consider models under which
court-appointed professionals are paid directly
by the courts, with potential reimbursement
by the parties after due consideration of the
parties' financial circumstances; and
• Congress should schedule hearings on family

9

courts' practices with regard to children's
safety and civil rights.
Ms. Shao’s case is a good example of court
ordered abuse of a child and mother. The court,
child’s attorney and professionals jointly suppressed
her ex-husband’s dangerous mental illness, and
refused to recuse themselves when there have been
direct conflicts of interest.
California Protective Parents Association,
wrote an Amicus Curiae letter for Ms. Shao
regarding the court-ordered abuse which was sent to
the Chief Justice of California Supreme Court on
July 2, 2014.
The Petition for Writ of Certiorari is in line
with the goals of the H.Con.Res. 72 as passed by the
House of Representatives.
CONCLUSION
For the foregoing reasons, Amicus request that
Yi Tai Shao’s Petition for Certiorari be granted.
Dated: November 9, 2020.
Respectfully submitted,
CHRISTOPHER W. KATZENBACH
ckatzenbach@kkcounsel.com
KATZENBACH LAW OFFICES
Attorney for Amicus Curiae Mothers of
Lost Children

